LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-843:

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL. V. KEVIN
P. BRUEN, IN HIS OFFICIAL CAPACITY AS SUPERINTENDENT OF NEW
YORK STATE POLICE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Black Guns
Matter, A Girl & A Gun Shooting League and Armed Equality on July 20, 2021, I
caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioners and Respondents:
PETITIONERS:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com

RESPONDENTS:
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
Black Guns Matter, A Girl & A Gun Shooting League and Armed Equality in an official
“first class mail” receptacle of the United States Post Office as well as by transmitting
a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of July 2021.

